                                             SENSITIVE BUT UNCLASSIFIED



OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               MIDDLE EAST REGIONAL OFFICE


                               Department of State Planning for the
                               Transition to a Civilian-led Mission in Iraq

                               Performance Evaluation

                               Report Number MERO-I-11-08, May 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





                                    TABLE OF CONTENTS


KEY FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       5

  Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5

  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           7

  Management Comments and OIG Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               8

BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

MANAGING THE TRANSITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

 Management Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

COMPLETION OF RECONSTRUCTION PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . .15

KEY TRANSITION ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

  Police Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

  Office of Security Cooperation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

  Provincial Posts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     Consulate Erbil . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

  Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  Air Transportation Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

  Medical Care. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

  Facility Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDIX I: PURPOSE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . 31

APPENDIX II: ONGOING IRAQ STRATEGIC PARTNERSHIP OFFICE
PROJECTS AS OF FEBRUARY 11, 2011 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

APPENDIX III: COMMENTS FROM THE BUREAU OF INTERNATIONAL 

NARCOTICS AND LAW ENFORCEMENT AFFAIRS . . . . . . . . . . . . . . . . . . . . . . . . . . 35





   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                    SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED




KEY FINDINGS


The Department of State (Department) and Embassy Baghdad have put in place
planning and management mechanisms to effectively transition to a civilian-led pres­
ence in Iraq. However, several key decisions have not been made, some plans cannot
be finalized, and progress is slipping in a number of areas. The lack of senior level
Department participation dedicated to the transition process, which has been a weak­
ness, may be alleviated by the Secretary of State’s appointment of an Iraq Transition
Coordinator. 

Progress is being made on completion of remaining reconstruction projects and trans­
ferring responsibility to the Government of Iraq (GOI). Although there have been
delays in completing and transferring some projects, and getting local government or
the GOI to assume responsibility for some projects can be challenging, according to
Embassy Baghdad, remaining projects will be completed by the summer of 2012.

Establishing a viable diplomatic mission in Iraq without Department of Defense
(DOD) support and funding will require considerable resources. However, challenges
to transition planning make it difficult to develop firm or detailed budget estimates.

The Department faces many challenges in transitioning to a civilian-led effort in
Iraq, including:

    • 	 Transfer of police training from DOD to the Department is generally on
        schedule, but plans for the size and scope of the mission have had to be
        revised and land use agreements have not been confirmed. Protective security
        for contractor personnel working for the Bureau of International Narcotics
        and Law Enforcement Affairs (INL) will be provided by the Bureau of
        Diplomatic Security (DS). INL and DS are working on a protective security
        plan, which they intend to conclude soon.

    • 	 Establishment of an Office of Security Cooperation (OSC) is behind sched­
        ule, and full mission capability is unlikely by October 2011.

    • 	 Construction of four planned provincial posts has been delayed by the inabil­
        ity to decide on scope, size, and land use; and uncertain future funding. In
        addition to cost, security and safety concerns at the current facilities in Erbil
        make that location particularly problematic.




  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   1


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



      •     To meet air transportation requirements, the Department will need to
            procure additional aircraft, obtain agreements on flight plans and land use,
            construct or renovate air facilities, and maintain aircraft.

      •     Losses in protective security capability for U.S. Government personnel caused
            by the military’s withdrawal will need to be mitigated through closer work-
            ing relationships with the GOI, as well as access to DOD security-related
            information and equipment. In addition, there are still weaknesses in Iraqi
            military specialty units.

      •     Fully staffed medical facilities may not be in place by the end of the year
            and will be costly to establish and sustain. (b)(2)(b)(5)


      •     Embassy housing is nearing full capacity, and it may be difficult to absorb the
            expected influx of personnel. In addition, necessary generator maintenance
            will decrease available electric power at the same time as demand increases.




2   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




INTRODUCTION


By October 1, 2011, the Department will assume full responsibility for the U.S.
presence in Iraq, as DOD withdraws its remaining 50,000 troops by December
2011, according to the U.S.-Iraq Security Agreement.1 This withdrawal will require
the Department to provide security, life support, transportation, and other logisti­
cal support currently provided by the U.S. military in Baghdad, at consulates in
Basra and Erbil, at embassy branch offices in Kirkuk and Mosul, and at other sites
throughout Iraq.

The transition from a military to a civilian-led mission in Iraq is an unprecedented
undertaking, highly complex in nature and scope, with extensive requirements for
staff, budgets, and organization—all taking place in an operating environment
that is still violent and unpredictable.  Mortar and rocket attacks on the embassy
compound, roadside bombings, and insurgent attacks against GOI facilities and
officials remain common. Under these conditions, planning and coordination are
essential to ensure a smooth and successful turnover and assumption of responsibili­
ties by the Department.  Since only months remain until the Department takes
full responsibility from DOD, there is a need to act efficiently and effectively. For
these reasons, OIG has been monitoring the Department and embassy transition
efforts. OIG issued a report in August 2009 covering an evaluation undertaken from
December 2008 to June 2009.2 OIG’s evaluation covers the period from August 2010
to February 2011, and the report underscores the consensus of the foreign affairs
accountability community, including the Commission on Wartime Contracting
in Iraq and Afghanistan, Senate Foreign Relations Committee, Special Inspector
General for Iraq Reconstruction, and U.S. Government Accountability Office on the
issues facing the Department. Further, the OIG report identifies other key concerns
requiring attention.

OIG’s Middle East Regional Office (MERO) initiated this work under the authority
of the Inspector General Act of 1978, as amended, to evaluate Embassy Baghdad
and Department plans and activities associated with U.S. military downsizing in
Iraq. The objectives of this review were to determine: (1) planning and coordina­
tion mechanisms in place at Embassy Baghdad and in Washington, DC; (2) the
status of transitioning construction and infrastructure development projects to the
Government of Iraq; and (3) key transition issues and operational challenges. OIG

1
  Agreement Between the United States of America and the Republic of Iraq On the Withdrawal of United States
Forces from Iraq and the Organization of Their Activities during Their Temporary Presence in Iraq, November 17,
2008.
2
  See Performance Evaluation of Embassy Baghdad’s Transition Planning for a Reduced United States Military
Presence in Iraq, MERO-A-09-10, August 2009. See also Report of Inspection, Compliance Follow-up Review of
Embassy Baghdad, Iraq, ISP-C-11-08A, October 2010.



    OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   3


                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




    began its work in August 2010 and subsequently met with senior officials involved
    in transition management in Washington, DC and Iraq. In addition, OIG exam­
    ined Department program and planning documents and met with operational level
    officials at the embassy and at provincial posts in Erbil and Kirkuk.




4     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




EXECUTIVE SUMMARY 


RESULTS
The Department and Embassy Baghdad have mechanisms to effectively plan,
coordinate, and manage the transition to a civilian-led presence in Iraq, but several
key decisions remain unresolved, some plans cannot be finalized, and progress in
a number of areas is slipping. The current process has improved since OIG’s report
of August 2009 which identified several planning weaknesses. The Iraq Enduring
Presence Working Group, with members from Baghdad and Washington, DC,
has been established. In addition, the embassy has established a Transition Cell
to manage its transition effort in Iraq. However, the lack of timely decisions on
key issues, which stems from a lack of senior level participation in the process, has
hampered the effort. OIG notes that the Secretary of State recently appointed an Iraq
Transition Coordinator who will be responsible for all Department aspects of the
U.S. transition. 

The embassy has been moving forward with completion of remaining reconstruction
projects and transferring responsibility to local and provincial governments and the
GOI. Project completion and transfer will continue beyond the spring of 2011 when
the embassy’s Iraq Strategic Partnership Office (ISPO) is set to close. When the office
closes, ISPO consultant staff under the embassy’s economic section will continue to
work on remaining projects, with the U.S. Army Corps of Engineers managing the
technical aspects. Delays in completing and transferring projects have been attributed
to the problematic security environment and poor contractor performance. In addi­
tion, it has been challenging getting local and provincial governments and the GOI
to readily assume responsibility for some reconstruction projects. Despite these chal­
lenges, as of March 2011, 83 Department projects are underway, and to date, 5,405
U.S. Government projects, valued at $15.2 billion, have been transferred to the GOI.
Project completion is expected by the summer of 2012.

Establishing a viable diplomatic mission in Iraq without the considerable support and
resources of DOD will almost certainly require years of effort and the investment of
significant resources. However, difficulties in making final decisions and completing
plans have hindered the ability to derive firm, detailed budget figures for completing
the transition and sustaining operations. The administration requested $2.7 billion
for Iraq in FY 2011 and has requested $6.3 billion in FY 2012.

The training of police is critical to long-term stability in Iraq. Transfer of police
training from DOD to the Department is generally on schedule, with many required
actions undertaken or completed. According to INL representatives, a lack of clarity


  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   5


                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




    on funding levels and delays in appropriations have led to review and revision of
    program scope. INL noted that it is working with the GOI to identify specific train­
    ing needs for police in various locations. Further, the inability to finalize land use
    agreements has prevented the start of construction at training sites, and the lack of
    resolution on land use makes meeting the transition timeline more difficult. DS will
    be responsible for providing protective security for INL contractor personnel involved
    in training. INL is working with DS on a protective security plan for these personnel,
    which it intends to conclude soon.

    The OSC is expected to manage the defense relationship between the U.S.
    Government and the GOI. Establishment of the OSC, however, is behind schedule,
    and full mission capability is unlikely by October 2011. The schedule has been
    affected by the inability to decide on the OSC’s size or its locations throughout
    Iraq. Because it is a DOD organization, the OSC will be funded by DOD, but the
    embassy will be responsible for providing operational support. Officials from the
    embassy and the Bureau of Near Eastern Affairs (NEA) disagree on the level of this
    support, including provision of office space and logistics.

    It is unlikely that four planned provincial posts will be fully established by the end of
    2011. Delays in forming a new national government and the inability to obtain land
    use and lease agreements with the GOI have delayed Department decisions on the
    size and scope of each post. Uncertain future funding has prevented moving forward
    with planned construction. The embassy plans to construct temporary facilities by
    upgrading three provincial reconstruction team (PRT) structures and the regional
    reconstruction team (RRT) facilities in Erbil. Locating a future consulate in Erbil
    will be costly, and the security and building safety of the current facilities are prob­
    lematic. Colocating a temporary consulate at a contingency operations site (COS)
    near the Erbil airport, which has existing DOD infrastructure, may be a viable
    alternative.
    (b)(2)(b)(5)




6     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




The Department faces challenges in expanding and sustaining air operations, includ­
ing air transportation for chief of mission personnel in and out of Iraq, as well as
within the country; quick reaction force movement; search and rescue; and route
reconnaissance and convoy escort. To support these air operations, the Department
must procure more aircraft, obtain agreements on flight plans with the GOI and
other governments and agreements on land use with the GOI, construct or renovate
air facilities, and provide aircraft maintenance and refueling.

Embassy Baghdad plans to establish contractor-supported medical facilities to
provide comprehensive medical care for U.S. Government personnel. Because of the
complexity and considerable cost of construction, staffing, and logistics, there is a
risk the embassy will not have a fully operational medical system prior to the mili­
tary’s departure at the end of the year.


Embassy Baghdad is nearing its full housing capacity with nearly 4,000 beds, but
will need to accommodate an influx of civilian personnel, which is currently planned
to increase to around 8,000 by the end of 2011. The embassy is negotiating with the
GOI to obtain more property currently occupied by the U.S. military, but there are
no contingency plans if these property leases are delayed or denied. Further, OIG
finds NEA’s proposed accommodation solutions neither optimal nor sustainable in
the long term. In addition, the electric power generation system is already operating
at full capacity using all generators full time. These generators will have to undergo
maintenance sooner than planned, which will decrease the amount of electricity
when demand is increasing.

RECOMMENDATIONS


    RECOMMENDATION 1: OIG recommends that Embassy Baghdad,
    in consultation with the Bureau of Near Eastern Affairs and the Bureau
    of Resource Management, finalize program and operational planning to
    develop detailed cost estimates for: (1) completing the transition to a civilian-
    led mission in Iraq, including construction and procurements; and (2) future
    funding requirements to sustain programs and operations, including police
    training, the Office of Security Cooperation, provincial posts, security, air
    transportation operations, medical care, and facility requirements. (Action:
    Embassy Baghdad, in consultation with NEA and RM)




  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   7


                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 2: OIG recommends that Embassy Baghdad evalu-
        ate colocating the planned temporary consulate in Erbil at the contingency
        operations site near the Erbil airport, with Bureau of International Narcotics
        and Law Enforcement Affairs’ police training and air wing operations, until a
        permanent consulate is constructed. This colocation could result in an esti-
        mated $12.2 million in cost savings for facilities improvements and undeter-
        mined savings for duplication and life support. (Action: Embassy Baghdad)




        RECOMMENDATION 3: (b)(2)(b)(5)



    MANAGEMENT COMMENTS AND OIG RESPONSE
    Embassy Baghdad, DS, the Bureau of Resource Management (RM), and INL
    provided technical comments on a draft of this report. INL also provided formal
    written comments, which are included verbatim in Appendix III. The Bureau
    of Overseas Buildings Operations (OBO) and NEA did not provide comments.
    Embassy Baghdad noted its appreciation for OIG’s report, and further indicated
    that it constructively highlights important transition-related issues. The embassy,
    DS, INL, and RM generally concurred with the findings in the report and OIG’s
    recommendations. In response to technical comments from all four entities, OIG has
    adjusted the text as necessary and appropriate.

    In its formal comments, INL stated it made timely decisions on the size and scope
    of the police training program in Iraq, but planning efforts were hindered and plans
    had to be revised based on “a lack of clarity on funding levels and delays in congres-
    sional appropriations.” OIG accepts that uncertain funding levels present challenges
    to planning. However, since the training program is critical to the U.S. Government
    strategy for a successful transition, INL should progress with plans based on needs,
    which would enable the bureau to better advocate for the police training that Iraq
    requires. In comments on Recommendation 1 in the draft report, INL noted that
    requirements and cost estimates are continually evolving and are thus difficult to
    finalize. In response, OIG has adjusted Recommendation 1 by recommending
    that Embassy Baghdad, in consultation with NEA and RM, finalize program and
    operational plans so that detailed cost estimates can be developed. In comments on
    Recommendation 2, INL questioned the utility of moving consulate operations to
    the COS in Erbil. As a result of its site visit and further examination, the OIG team
    determined that there are potential cost savings, and therefore, moving temporary
    consulate operations to the COS should be evaluated by Embassy Baghdad. OIG


8     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                          SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




maintains the value of examining this option for potential cost savings and efficien­
cies, and encourages INL to consult with the embassy during its evaluation to ensure
its concerns are taken into account.




  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   9


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





10   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




BACKGROUND


The 2008 U.S.-Iraq Security Agreement required the U.S. military to withdraw
from Iraqi cities by June 30, 2009, and all U.S. forces to withdraw from Iraq by
December 31, 2011. The U.S. military successfully withdrew from Iraqi cities in June
2009, transitioning responsibility for security to the GOI. The U.S. military is now
transitioning full responsibility for security across Iraq to the GOI and will transfer
overall responsibility for the U.S. presence to Embassy Baghdad by October 2011.

This transition to a civilian-led mission in Iraq is an enormous undertaking, involv­
ing multiple departments and agencies in Washington, DC and Baghdad. The
changing U.S. military footprint in Iraq will also have profound impact on Embassy
Baghdad activities, operations, and personnel. In its August 2009 report, OIG
pointed out that the departure of the U.S. military raised a number of key issues for
the Department that needed to be resolved, including protection for the embassy
compound and convoy security for goods supplying the embassy; the completion and
transfer of reconstruction and infrastructure projects to the GOI; the embassy’s reli­
ance on the U.S. Army’s Logistics Civil Augmentation Program (LOGCAP) for food
service, fuel, vehicle maintenance, transportation, and convoy support; air transport
for chief of mission personnel in and out of Iraq; and the continuation of a U.S. civil­
ian presence in the provinces.

The ability of the Department to resolve many transition-related issues is contingent
on an active partnership with the GOI. Agreements and plans are already in place
to help guide this partnership. The 2008 Strategic Framework Agreement3 provides
a blueprint for the U.S. Government’s overall efforts in Iraq. The embassy and U.S.
Forces–Iraq’s 2010 Joint Campaign Plan for Iraq guides the Department’s strategy,
and the embassy’s FY 2012 Mission Strategic and Resource Plan articulates transition-
related goals and targets. However, the inconclusive results of national parliamentary
elections in March 2010 hindered the relationship with the GOI. After the elections,
it took 9 months to form a new government. According to embassy officials, during
this time, decision-making by the GOI slowed or stopped entirely, resulting in a
backlog of initial decisions that affected many operational level transition issues.

Embassy Baghdad receives operational support funding from NEA and RM.
According to bureau and embassy budget officials, identifying costs associated
with the U.S. military drawdown is an ongoing process and costs are identified as
requirements arise. Representatives from RM noted that the bureau is continuing


3
 Strategic Framework Agreement for a Relationship of Friendship and Cooperation between the United States of
America and the Republic of Iraq, November 17, 2008.



    OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   11


                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     to consult with NEA, DS, and OBO to refine projected costs, taking into account
     evolving requirements, contract awards, and equipment being provided by DOD. In
     response to a congressional inquiry, the Department stated that the current average
     monthly obligation rate for the embassy and PRTs is approximately $120 million. As
     the transition of DOD-supported activities to the Department accelerates in 2011,
     average monthly obligations will grow by $275 million, peaking at approximately
     $395 million per month around mid-2011 before dropping to lower obligation rates
     by the end of the year. Further, in FY 2011, like all Federal agencies, the Department
     is operating under a continuing budget resolution, and is being funded at the FY
     2010 level. Because in FY 2010, the transition was mainly funded through a supple­
     mental appropriation that is not included in the continuing resolution, the amount
     of funding currently available for the transition is substantially less than the embassy
     estimated it needed in FY 2011. 




12     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




MANAGING THE TRANSITION


The Department and Embassy Baghdad have effective planning and coordination
mechanisms to manage the transition to a civilian-led presence in Iraq,4 but
several key decisions remain unresolved, some plans cannot be finalized, and
progress in a number of areas is slipping. For example, during the course of OIG’s
review the estimated number of personnel to be assigned to INL’s planned police
training program and DOD’s planned OSC presence continually changed. (These
two programs and other ongoing transition issues are discussed in greater detail later
in this report.) As a result, the embassy cannot finalize plans; and the actions needed
to construct facilities and provide for life support, security, and other logistical
requirements are stalled. In addition, key high-level decisions in Washington have
been delayed, wasting scarce embassy time and effort. According to embassy officials,
numerous staff and hundreds of hours were devoted to developing an alternative to
the LOGCAP contract for provision of housing, food services, and other life support.
After months, it was decided the embassy could continue to use LOGCAP under a
shared cost arrangement with DOD.

MANAGEMENT STRUCTURE
The key mechanism for managing the transition is the Iraq Enduring Presence
Working Group composed of individuals from offices in Baghdad and Washington,
DC. Based upon a review of planning and reporting documents and numer-
ous interviews with sub-working group officials, the OIG team concluded the
Working Group is addressing most of the 310 activities the embassy will assume
of the more than 1,000 tasks the U.S. military had been performing.5 In addition
to the Working Group, the embassy’s management section maintains a Transition
Cell directed by a deputy counselor who is dedicated full-time to managing the
embassy’s transition efforts. The Transition Cell is composed of 13 sub-working
groups and covers all major areas of the transition—provincial affairs, police
training, security, and administrative and support initiatives. The Transition Cell
is identifying potential problems in the transition work flow process and devel-
oping multiple plans based on changing requirements (for example, the recent

4
  The current transition planning and management process has significantly improved since 2009 when OIG
reported the embassy did not have a unified transition plan, but only statements in its Mission Strategic Plan
related to reducing reliance on military assets for security augmentation, communications, and logistical
support. There was no single entity responsible for overall direction and coordination of embassy transition
planning, and planning was being conducted at the operational level without senior level input.
5
  These tasks are detailed in the 2010 Joint Campaign Plan for Iraq, a strategic document composed and
approved by top Department and DOD officials in Iraq. The plan includes short-term and longer term objec­
tives in four specific areas—political, security, economic and energy, and rule-of-law—and is updated periodi­
cally to reflect changes in the environment in Iraq.



    OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   13


                        SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




     decision to decrease the number of embassy branch offices from three to two).
     Figure 1 shows the management structure and functional transition areas of responsi­
     bility for the Iraq Enduring Presence Working Group.

     Figure 1: Organization Chart for Iraq Enduring Presence Working Group




     Source: OIG analysis of Department and Embassy Baghdad data

     According to knowledgeable operational level Department and embassy officials,
     the inability to obtain timely decisions on key transition issues is undermining the
     transition effort. These officials report that the problem stems from the lack of senior
     level Department and DOD officials in Washington dedicated to the Iraq transition
     process, which hinders quick resolution of outstanding issues. The need for senior
     level participation in the transition process has also been cited in a recent congressio­
     nal report6 and by an OIG Office of Inspections report.7 These reports recommended
     that a senior level coordinator be appointed to ensure a unified effort. The congres­
     sional report noted that the coordinator would serve as the principle interlocutor with
     DOD on transition issues. The OIG report noted that many in Washington, DC are
     involved in the transition, but no one appears to have the lead. A high level, full-time
     coordinator with a dedicated staff would be better placed to push through decisions
     and oversee the more detailed planning needed for the new mission in Iraq. OIG
     notes that on February 14, 2011, the Secretary of State announced the appointment
     of an Ambassador with experience in Iraq to serve as the Iraq Transition Coordinator. 
     The ccoordinator will be responsible for all Department aspects of the U.S. transition
     from military to civilian operations in Iraq. 

     6
       Iraq: The Transition from a Military Mission to a Civilian-led Effort, A Report to the Members of the Committee
     on Foreign Relations, United States Senate, One Hundred Twelfth Congress, First Session, January 31, 2011.
     7
       Report of Inspection, Compliance Follow-up Review of Embassy Baghdad, Iraq, ISP-C-11-08A, October
     2010.


14       OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



COMPLETION OF
RECONSTRUCTION PROJECTS

Embassy Baghdad’s ISPO is making progress completing the last remaining
reconstruction projects, including large infrastructure projects, and transferring
responsibility to local and provincial governments and the GOI.8 ISPO is scheduled
to close in spring of 2011 but, according to officials from the office, all projects
will be completed by remaining staff. The office is currently composed of eight
U.S. Government direct-hire Department employees, two contractors, and two
U.S. military staff members. Plans call for drawing down to five staff members and
transferring administrative responsibilities to the embassy’s economic section in
the summer of 2011, and for final staff members to depart Iraq by the summer of
2012. Consultants from the U.S. Army Corps of Engineers will continue to provide
field oversight and executive supervision for completing the ongoing reconstruction
projects.

Embassy officials cited the difficult security environment and poor contractor
performance as the major hindrances to project completion. In addition, embassy
officials noted the challenge of getting local and provincial governments and GOI
ministries to readily assume responsibility for some transferred projects. Despite these
challenges, embassy officials noted that, to date, they have been able to transfer 5,405
projects valued at $15.2 billion to local and provincial governments or GOI minis­
tries. Current projections call for completing and transferring the final, remaining
83 projects between the end of 2011 and the beginning of 2012. See Appendix II for
information on IPSO reconstruction projects and funding.




8
  Reconstruction projects are supported by the Iraq Relief and Reconstruction Fund ($21 billion) and
Economic Support Funds ($1 billion).



  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   15


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





16   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




KEY TRANSITION ISSUES

The Department’s current plan for Iraq calls for approximately 17,000 personnel
under chief of mission authority at 15 sites throughout the country. The goal is to
have political, economic, and security personnel throughout the country, especially in
key areas, such as Mosul and Kirkuk, to engage daily with their Iraqi counterparts,
help defuse crises, and develop long-term solutions to problems. This ambitious
diplomatic plan is constrained by competing budget priorities and pressures to
restrict overall federal spending. Congressional leaders are questioning the size, scope,
structure, and cost of the U.S. Government’s diplomatic presence, as well as whether
this level of effort is required.9 Further, because plans have not been finalized, it has
been difficult to develop firm, detailed budget figures including figures for construc­
tion, security, and life support. In congressional testimony, the Ambassador estimated
construction costs in the order of $1 billion dollars over several fiscal years and
operating costs up to many hundreds of millions of dollars, largely for security and
life support. According to some estimates obtained by OIG, it may cost $350 million
to establish each consulate and embassy branch office and $150-$200 million in
annual operating costs.10 Figure 2 shows the location of future consulates, proposed
OSC sites, future embassy branch offices, police development sites, and air hubs.

Figure 2: Location of Future Consulates, Proposed Office of Security
Cooperation Sites, Future Embassy Branch Offices, Police Development Sites,
and Air Hubs




Source: OIG analysis of Department data


9
  Hearing before the Senate Foreign Relations Committee on the transition to a civilian mission in Iraq,
February 1, 2011.
10
   As a point of reference, in August 2009, OIG reported that the Department spent more than $75 million
annually and employed as many as 700 people to secure, operate, and maintain a regional embassy office
in Hillah (Babil Province) with a ratio of nearly four life support and personal security contractors to each
U.S. Government staff member.


  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   17


                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     Each multi-faceted aspect of the transition from a military mission to a civilian-led
     effort faces many different challenges. The Department will need to continue manag­
     ing the U.S. Government’s security relationship with the GOI by training and build­
     ing the capacity of Iraqi police and the military. In addition, to support expansion of
     a U.S. diplomatic presence, the Department has identified a need to construct, staff,
     and support operation of provincial posts. An increasing number of personnel under
     chief of mission authority, as well as contractors, at both the embassy and provincial
     posts will require life support services, personal security, reliable air transportation,
     and adequate medical care. For provision of these services, contracts will need to be
     solicited and contractors selected. Further, the Department must rely on other part­
     ners, such as the GOI, to finalize land use agreements for police training facilities,
     provincial posts, and aircraft operations. The Department is also dependent on DOD
     to provide security-related information, equipment, and systems, as well as excess
     medical equipment. Finally, increases in personnel will strain the embassy’s ability to
     provide adequate housing and electric power.



     POLICE TRAINING
     The Department is generally on pace to assume control of Iraqi police training from
     the U.S. military by October 1, 2011; however, INL has continued to revise the
     size and scope of its program.11 According to INL officials, these revisions are the
     result of funding uncertainties. Since 2003, the U.S. Government has spent approxi­
     mately $7.3 billion to train, staff, and equip Iraqi police forces. In testimony before
     Congress, the Ambassador stated that helping the Iraqis professionalize their police is
     absolutely critical to the country’s long-term stability. U.S. military-provided police
     training has focused on basic policing skills. Currently, the U.S. military manages
     more than 370 civilian police and customs and border police advisors at more than
     130 sites in 18 provinces. The INL-led police development program will focus on
     higher level mentoring, advising, and training at the ministerial and provincial
     level, and on specialized training. Recent plans call for approximately 190 subject
     matter experts based out of three hubs—Baghdad, Basra, and Erbil.12 These training
     experts will travel to 28 Iraqi advisory sites focusing on population centers in 10 of 18
     provinces.

     According to embassy officials, the transfer of U.S. military responsibilities for police
     training to the Department is generally on schedule. OIG’s analysis of key mile­
     stones shows the Department, the U.S. military, and the GOI have undertaken or

     11
        National Security Presidential Directive 36 assigned the mission of organizing, equipping, and training Iraq’s
     security forces, including the police, to the U.S. Central Command until the Secretaries of State and Defense
     agreed the Department of State should take on that responsibility. United States Government Operations in Iraq,
     May 11, 2004.
     12
        An additional 45 Department of Justice personnel funded out of INL’s Police Development Program will
     work on complementary rule-of-law and justice programs.


18     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




completed many required actions, such as signing a Department-GOI memorandum
of agreement establishing the INL-led program and identifying hub training sites.
However, the Department has been unable to confirm final staffing numbers for
U.S. Government direct-hire personnel, contractors, or trainers needed for training.
In addition, although INL has developed an initial compendium of training materi­
als, the bureau continues to work with the GOI to identify specific training elements
for facilities and departments. The GOI’s failure to finalize land use agreements with
the embassy has prevented INL from starting required construction at the training
sites. According to embassy officials, the longer land use remains an unresolved issue
with the GOI, the more difficult it will be to meet the transition timeline. According
to INL, protective security for its contractor personnel involved in training will be
provided by DS. INL and DS are coordinating, but have not concluded, a protective
security plan for the police training program.

OFFICE OF SECURITY COOPERATION
The steps needed to establish the OSC to manage the U.S. Government’s bilateral
defense relationship with the GOI are significantly behind schedule, and the office
is unlikely to reach full mission capability by October 2011.13 The OSC mission
will include advising, training, and equipping Iraqi forces; supporting professional
military education; planning joint military exercises; and managing more than $13
billion worth of foreign military sales programs with the GOI.14 As of February 2011,
decisions had not yet been made on the size of the OSC mission and site locations
throughout Iraq. The OIG team reviewed reports that showed planned full-time
military and civilian U.S. Government direct-hire staffing levels fluctuating from
the low 100s to nearly 1,000. Permanent staff will be augmented by an as yet unde­
termined number of contractors. Initial planning called for OSC sites in multiple
locations across Iraq—in Baghdad, Besmaya, Taji, Tikrit, and Umm Qasr. More
recent plans, which take into account expected budget decreases, call for colocating
some OSC operations at embassy provincial sites, but no final site decisions have
been made.

Although the OSC is a DOD organization, it falls under chief of mission author-
ity, and the embassy is generally responsible for providing operational support.
During the course of this evaluation, the OIG team observed a lack of agreement
between the embassy and NEA on the level of support for the OSC. Embassy
officials told the OIG team they had not been involved in planning discussions


13
   In OIG’s August 2009 report, the embassy noted that OSC would greatly impact the embassy platform in
2011 and beyond. However, the program has not been defined in scope, number of personnel and their deploy­
ment to different Iraq sites, the duration of their mission, or their support needs. Therefore, the embassy cannot
begin the necessary planning.
14
   According to the Ambassador’s February 2011 congressional testimony, there are 336 cases of foreign military
sales (valued at $8 billion) currently planned, and the GOI has requested an additional 61 cases (valued at $5
billion).



     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   19


                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




     with DOD and were expecting only to assist DOD in acquiring property for future
     OSC offices. These embassy officials were expecting DOD to plan, fund, build up,
     and support the OSC sites. NEA officials told the OIG team that, although they
     expect DOD to provide the necessary funding, the embassy would be responsible for
     providing office space and logistical support. Office space is of particular importance
     because the embassy has expressed serious concerns about increasingly cramped office
     and housing space at Embassy Baghdad.

     Finally, according to a congressional report, the Department and DOD have not
     decided on security standards for OSC sites or provision of funding. Department
     security standards are more restrictive than DOD requirements and could result
     in an estimated additional $750 million in costs. According to this report, the
     Department may not be able to afford the associated security costs at the OSC sites.15

     PROVINCIAL POSTS
     The Department will face significant challenges in seeking to establish four provin­
     cial posts—two permanent consulates in Basra and Erbil and two temporary embassy
     branch offices in Kirkuk and Mosul—and it is unlikely that many aspects of the
     Department’s plans for a provincial presence will be completed before the U.S.
     military’s departure at the end of 2011.16 The GOI’s delays in forming a new national
     government and the inability of the embassy to obtain formal land use and lease
     agreements for building sites have been primary obstacles. In part, these obstacles
     have delayed the Department’s final decisions on the size and scope of each provin­
     cial post. Department and embassy officials told the OIG team that fundamental
     decisions need to be made on staffing levels, site construction, and logistical and
     life support operations. These decisions affect many other required actions includ­
     ing: recruitment and training of staff; drawing up of architectural plans and letting
     of construction contracts; and arranging security for personnel, facilities, and staff
     movements.

     Further, the uncertain funding situation caused by FY 2011 continuing resolutions
     and the ongoing FY 2012 budgeting process have hindered the embassy in moving
     forward with planned construction. OBO originally planned to construct perma­
     nent consular facilities in Basra and Erbil, but without supplemental appropriations



     15
        Iraq: The Transition from a Military Mission to a Civilian-led Effort, A Report to the Members of the Committee
     on Foreign Relations, United States Senate, One Hundred Twelfth Congress, First Session, January 31, 2011.
     16
        According to embassy officials, the embassy’s FY 2011 Mission Strategic Plan, and its FY 2012 Mission
     Strategic and Resource Plan, the mission of the U.S. provincial presence is to mitigate and mediate Arab-
     Kurd, Sunni-Shia, and Baghdad-provincial tensions; strengthen the rule-of-law and the capacity of provincial
     institutions in key flashpoint locations; balance foreign interference; promote the safe return and resettlement
     of displaced persons; encourage foreign investment, economic growth, and development; report on strategic
     trends, events, and causes of Iraqi instability; present American policy and promote mutual understanding and
     respect for American values; and provide limited services to American citizens.



20        OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



funding, OBO has changed those plans.17 The Basra and Erbil permanent consulate
construction will now be managed and prioritized under OBO’s normal construc-
tion planning process. According to embassy officials, completion of the permanent
consulates is not expected for up to 5 years. In the interim, embassy plans call for
upgrading and retrofitting the PRT structures currently located on U.S. military
forward operating bases in Basra, Mosul, and Kirkuk and using these bases as provin-
cial posts. Similarly, OBO plans to renovate and use existing structures to house
consulate operations in Erbil, where a RRT18 is located on a makeshift compound of
leased houses and buildings.

Consulate Erbil
The situation in Erbil presents unique problems. As OIG reported in August 2009,
the Erbil facilities are less than adequate.19 Offices and living quarters for the RRT
are located among local residences and businesses in an enclosed neighborhood. In
addition, a May 2009 OBO fire inspector’s report on the condition of the main office
building concluded it is unsafe due to problems with office layout that would make
exit in case of fire problematic, and the electrical wiring is a fire hazard. The location
of the RRT Erbil compound in the city is also a serious security concern. (b)(2)(b)
(b)(2)(b)(5)                                                                                                          (5)




A possible alternative to the RRT location is the COS, near the Erbil airport, which
is currently occupied by the U.S. military. The site is scheduled for use as office
space, housing, and life support for INL’s police training and all air wing operations.
The OIG team visited the COS and concluded there is sufficient space to accom-
modate consulate operations. Temporarily locating the consulate at the COS until a
permanent consulate is constructed would save the Department the cost of providing
two perimeter static guard forces and two separate life support systems. In addition,
the costs of relocating the consulate to the COS would be offset by an estimated
$10 million OBO would plan to spend renovating RRT Erbil, and $2.2 million DS
estimates it would cost to install security upgrades. Colocating the consulate with
INL would also facilitate coordination and information sharing between staffs in this
critical region.



17
   The Department originally requested $527 million in its FY 2010 supplemental budget request to establish
permanent consular posts. However, Department officials told OIG that permanent construction funding was
not included in FY 2010 supplemental appropriations. The Department now plans to spend $481 million in
Diplomatic and Consular Program funds to retrofit and improve existing structures for interim posts, designed
to last 3-5 years, rather than on new construction for permanent posts.
18
   RRT Erbil was established in 2007. The team functions like a PRT, but is called an RRT because it covers
the entire Kurdistan Region, comprising the provinces of Erbil, Dohuk, and Sulaymaniyah.
19
   Review of the Roles, Staffing, and Effectiveness of Regional Embassy Offices in Iraq, MERO-IQO-09-09, August
2009.



     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   21


                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



     SECURITY
     A key focus of the Department’s transition planning has been preparing for a reduc-
     tion in U.S. military protective security for U.S. Government personnel in Baghdad
     and other major cities. Department plans call for deploying more than 7,000 U.S.
     Government direct-hire regional security office agents, protective services contrac-
     tors, and third-country perimeter guard force personnel to protect U.S. Government
     personnel and property throughout Iraq. Although the level of civilian security
     force protection will increase, Department and U.S. military personnel acknowledge
     that the overall U.S. security capability will be reduced. For example, according to
     these officials, conducting frequent secure ground movements in locations outside
     of Baghdad will be a significant challenge. (b)(2)(b)(5)




     The embassy will attempt to mitigate the loss of tactical intelligence by establishing
     closer working relationships with the GOI. In September 2010, the embassy de-
     ployed DS agents to Mosul, Basra, and Kirkuk to liaise with outgoing U.S. military
     personnel and Iraqi officials. In addition, the Department has formally requested
     continued access to DOD systems and applications that provide intelligence and
     operations data. (b)(2)(b)(5)




     (b)(2)(b)(5)




     20
        DOD’s biometric database is the comprehensive repository for biometric information collected from
     detainees, enemy combatants, and other non-U.S. persons of interest in Iraq. This database stores and matches
     fingerprints, facial images, palm prints, and iris patterns, and prevents unauthorized access at U.S. installations. 



22        OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                              SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




In January 2009, the GOI assumed nominal control of the heavily guarded 

International Zone. Iraqi soldiers are responsible for perimeter security, vehicle and
personal searches, and badge clearance at the International Zone’s external check­
points. In OIG’s August 2009 report, it was noted that the performance and reli­
ability of these Iraqi forces to protect the embassy and personnel, especially from the
real threat of kidnapping, were paramount. According to embassy security officials,
the Iraqi military has performed adequately in manning checkpoints for access to the
International Zone; however, weaknesses still exist in Iraqi military specialty units.
For example, a recent mortar attack resulted in an unexploded mortar shell outside
the embassy gate. The Iraqi Army failed to respond, and the U.S. military was called
in to locate, disarm, and dispose of the mortar shell. Additionally, embassy security
officials stated they cannot rely on intelligence support from the Iraqi Army to moni­
tor security threats to the embassy. Since the U.S. military withdrew from Iraqi cities
in June 2009, the embassy has continued to experience indirect fire incidents, which
indicates the difficulty Iraqi forces have had monitoring and disrupting security
threats to the embassy and its personnel.

AIR TRANSPORTATION OPERATIONS
Currently, the U.S. military provides air transportation for chief of mission personnel
into and out of Iraq from Amman, Jordan and Ali Al Salem Airbase in Kuwait, as
well as internally throughout Iraq. As the military departs Iraq, it is taking its aircraft
which will require the Department to expand its air operations, known as Embassy
Air Iraq.21 Initially the Department explored chartering aircraft and using commer­
cially available flights as alternatives to military aircraft transportation. However,
due to security, logistical, and operational control concerns, the Department decided
to expand its own air operations to include all air transportation for chief of mission
personnel (both internal and external), quick reaction force movement, search and
rescue, medical and casualty evacuation, and route reconnaissance and convoy escort.

As of January 2011, Embassy Air Iraq consisted of 19 aircraft based in Baghdad. The
plan is to expand up to as many as 46 aircraft by December 2011, to include:

     •    18-20 medium lift S-61 helicopters
     •    14-18 light lift UH-1N helicopters
     •    Three light observation MD-530 helicopters
     •    Five Dash 8 fixed wing aircraft (50-passenger capacity)

The future quantity and mix of aircraft are under review, in conjunction with pend­
ing decisions on the future of the U.S. mission in Iraq and the size and scope of
the Department’s police training program. The fleet will be based and maintained in

21
   In September 2009, INL’s Office of Aviation put in place a task order to support Iraq aviation require­
ments. As of January 2011, $183.3 million had been allocated for general operations and $10.3 million for
construction.

  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   23


                      SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




     Baghdad, Basra, and Erbil and will service ring routes transporting personnel into and
     out of Iraq, internally from Baghdad to Basra and Erbil, and to and from helicopter
     hubs in support of embassy branch offices, police training centers, and OSC sites.

     In addition to putting in place an air operation with more than 20 aircraft22 supporting
     a 7-day-a-week mission load, the embassy is facing a number of other challenges in the
     months ahead. First, the Department must finalize agreements with the Governments
     of Iraq, Jordan, and Kuwait authorizing Embassy Air Iraq flight plans. Second, the
     Department needs to finalize land use agreements with the GOI to base aircraft in
     Basra and Erbil and use landing zones at the hub sites. Third, flight and landing
     zones, maintenance hangars, operation buildings, and air traffic control towers need
     to be renovated or constructed. Construction is in the initial stage in Baghdad and is
     only in the planning stage in Erbil and Basra. According to INL officials, completing
     these construction tasks by December 2011 will be difficult. Finally, the embassy must
     develop an independent aviation logistics operation for maintenance and refueling.
     Maintenance hangars with cranes are not available and Iraqi commercial aviation fuel
     delivery capability and dependability is poor.

     MEDICAL CARE
     Embassy Baghdad plans to establish a network of contractor-supported medical facili­
     ties to provide comprehensive medical care after the U.S. military’s withdrawal. A
     concept of operations has been developed and excess military medical equipment has
     been requested from DOD, but the Department is still in the contract solicitation
     phase. Senior embassy officials told the OIG team there is a risk the embassy will not
     have a fully mission capable medical operation prior to the military’s departure. For
     example, a contractor needs to be selected; doctors, nurses, and medical technicians
     identified and deployed; facilities constructed; and a host of logistical operations settled.

     The embassy plans to develop its own medical care operations because all but two
     hospitals (in Erbil) cannot be used due to security concerns or inadequate medical care.
     Plans call for establishing an undetermined number of medical units to provide on-site
     primary and initial emergency care for general medical, surgical, orthopedic, gyneco­
     logic, and mental health conditions to personnel at embassy sites. There are also plans
     to set up an undetermined number of diplomatic support hospitals to provide medical/
     trauma care and overnight bed capabilities. The largest of the diplomatic support
     hospitals will be located within the U.S.-controlled area at the Baghdad International
     Airport. This hospital will have the staff and equipment to manage two surgical
     patients, as well as post-operative/intensive care to stabilize up to six patients until they
     can be medically evacuated.


     22
       The Department requested that DOD provide Black Hawk helicopters, but the military declined citing the
     pressing need for those air assets in Afghanistan and elsewhere.



24        OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



   The cost to develop and sustain medical care operations is currently unknown, but
   according to embassy officials, it will be considerable. Further, based on interviews
   with embassy management, security, and medical personnel, and review of available
   planning documents, the (b)(2)(b)(5)



                                Although embassy medical plans do not currently include
   the capability for handling a mass casualty event, embassy officials stated that even
   the U.S. military’s current combat support hospital can be overwhelmed by a large
   number of casualties. The embassy won’t have the resources that are currently avail-
   able at the military’s hospital; however, embassy officials stated that they are develop-
   ing scenarios and will continue to explore possibilities for mitigating the impact of a
   mass casualty event, such as moving surgeons, employing fixed wing embassy planes,
   utilizing a civilian air ambulance service, or calling upon possible military resources
   to transport casualties to advanced trauma care facilities in Amman, Europe, or the
   Gulf.

   FACILITY REQUIREMENTS
   Embassy Baghdad’s existing stock of housing and beds (3,959) is nearing full
   capacity.24 With the influx of civilian staff, and the relocation of personnel from U.S.
   Government locations that are being returned to the GOI on the east end of the
   International Zone,25 personnel under chief of mission authority is expected to reach
   approximately 8,000 by the end of 2011. To meet life support requirements for these
   personnel increases, Embassy Baghdad is negotiating with the GOI to secure new
   leases on properties across from the embassy compound currently occupied by the
   U.S. military—forward operating bases Prosperity and Union. According to embassy
   officials, there are no contingency plans for accommodating the increased staffing
   levels if leases to the Prosperity and Union properties are delayed or denied. Figure 3
   shows U.S. Government facilities in the International Zone.




(b)(2)(b)(5)




   25
    The GOI has mandated that all properties east of the July 14th bridge corridor occupied by the U.S.
   Government be vacated by Spring 2011. The relocation will affect the large U.S. Agency for International
   Development compound and several private protective services contractor compounds.




        OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   25


                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




     Figure 3: U.S. Government Facilities in the International Zone in Baghdad,
     Iraq




     Source: OIG analysis of U.S. Government data

     NEA officials told the OIG team that creative ways would be found to accommodate
     and provide life support for more civilian personnel, including “hot bunking” (creat­
     ing shifts for use of sleeping rooms), adding more containerized housing units, or
     requiring private contractors to find accommodations off of the embassy compound
     in nearby neighborhoods. OIG agrees with the embassy that none of these options is
     optimal or sustainable in the long run.

     Further compounding Embassy Baghdad’s space problem is an electric power
     generation system already operating at full capacity. Existing and planned increases
     in infrastructure and personnel at the embassy have expanded its power needs to
     exceed what the power plant was designed to provide. According to embassy facility
     managers, because the generators are exceeding their intended use, they will have
     to undergo maintenance sooner than planned, which will decrease the amount of
     electricity available to support current embassy operations at a time when operations
     and demand for electricity will be increasing.26

     26
       According to embassy officials, a power plant serving a U.S. military base in Taji, north of Baghdad, has been
     identified as a possible additional power source for the embassy. If the plant is successfully purchased, it will
     need to be dismantled and reassembled, and space will need to be found to set up operations.



26        OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                              SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




CONCLUSION


Events in Iraq are at a critical stage, with less than 7 months remaining until the
Department assumes control of a civilian-led mission on October 1, 2011. The U.S.
military is on pace to depart Iraq by the end of the year. The U.S. Government is
committed to fostering a sovereign, stable, and self-reliant Iraq by building capacity
and providing training to Iraq’s police and military. Plans are proceeding to build
a robust diplomatic and assistance platform at 15 sites throughout Iraq, including
opening two new consulates and two embassy branch offices. However, although
effective planning mechanisms are in place to manage the transition process, some
key milestones are not being met, and there is a risk that some programs and opera­
tions will not be ready. Some slippage is due to unanticipated events beyond the
Department’s control, such as securing land use and lease agreements from the GOI
and delays in funding decisions and appropriations. Other problems are the result of
decision-making delays or the lack of final decisions, such as on the scope of INL’s
police training mission and the OSC mission. The uncertain budgetary situation is
also hampering the transition process. Establishing a viable diplomatic mission to
maintain Iraq as a strategic partner will almost certainly require years of effort and
the investment of considerable resources. The Department has requested $6.3 billion
in FY 2012 for its programs and activities in Iraq, but recent congressional debate
foretells a tightening fiscal situation that may require hard choices in the years ahead.
Managing the transition in Iraq is an unprecedented effort as is the Department’s
transformation into an expeditionary organization working in an overseas contin­
gency operational environment.




  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   27


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





28   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


COS                                  contingency operations site
Department                           Department of State
DOD                                  Department of Defense
DS                                   Bureau of Diplomatic Security
GOI                                  Government of Iraq
INL                                  Bureau of International Narcotics and Law Enforcement
                                     Affairs
ISPO                                 Iraq Strategic Partnership Office
LOGCAP                               Logistics Civil Augmentation Program
MERO                                 Middle East Regional Office
NEA                                  Bureau of Near Eastern Affairs
OBO                                  Bureau of Overseas Buildings Operations
OIG                                  Office of Inspector General
OSC                                  Office of Security Cooperation
PRT                                  provincial reconstruction team
RM                                   Bureau of Resource Management
RRT                                  regional reconstruction team




 OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   29


                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





30   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



APPENDIX I: PURPOSE, SCOPE, AND
METHODOLOGY

MERO initiated this evaluation in August 2010 under the authority of the Inspector
General Act of 1978, as amended, to evaluate Embassy Baghdad and Department
plans and activities associated with U.S. military downsizing in Iraq. The objectives
of this review were to determine: (1) planning and coordination mechanisms in
place at Embassy Baghdad and in Washington, DC; (2) the status of transitioning
construction and infrastructure development projects to the Government of Iraq; and
(3) key transition issues and operational challenges.

OIG reviewed embassy program and management planning, implementation,
staffing, and budget documents; and the embassy’s Mission Strategic Plans and
Mission Strategic Resource Plan for FY 2010-2012. OIG examined the Strategic
Framework Agreement and the Security Agreement between the U.S. military and
the GOI, and held extensive discussions with senior and operational level officials
at Embassy Baghdad, including the Ambassador for Management, the Ambassador
for Transition, and officials from the management Transition Cell, general services
office, regional security office, ISPO, INL, the Bureau of Political-Military Affairs,
the embassy medical unit, the Office of Provincial Affairs, and the U.S. Agency for
International Development. The team also met with the director of the Iraq Support
Unit at the U.S. Embassy in Amman, Jordan. OIG held extensive discussions with
senior and operational level officials in Washington, DC, including the co-chairs
of the Iraq Enduring Presence Working Group and officials from the Bureaus of
Management, NEA, Political-Military Affairs, DS, INL, and RM. OIG attended
Congressional hearings or reviewed testimony, including testimony from the former
and current Ambassadors to Iraq, the Deputy Secretary of State, the Under Secretary
for Management at the Department, and DOD officials. OIG also reviewed relevant
MERO reports, as well as the following: Report of Inspection, Compliance Follow-up
Review of Embassy Baghdad, Iraq (ISP-C-11-08A, OIG, Office of Inspections,
October 2010); Special Report on Iraq Transition Planning, Better planning for
Defense-to-State transition in Iraq needed to avoid mistakes and waste (Commission
on Wartime Contracting in Iraq and Afghanistan, July 12, 2010); Quarterly and
Semiannual Report to Congress (three reports issued by the Special Inspector General
for Iraq Reconstruction, July 2010, October 2010, and January 2011); Iraq: Key
Issues for Congressional Oversight (GAO-09-294SP, U.S. Government Accountability
Office, March 24, 2009); Operation Iraqi Freedom: Actions Needed to Facilitate the
Efficient Drawdown of U.S. Forces and Equipment from Iraq (GAO-10-376, U.S.
Government Accountability Office, April 19, 2010); Securing and Stabilizing Iraq: An
Assessment of the U.S. Joint Campaign Plan for Iraq (GAO-10-584R, U.S. Government


  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   31


                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     Accountability Office, April 22, 2010); and Iraq: The Transition from a Military
     Mission to a Civilian-led Effort, A Report to the Members of the Committee on Foreign
     Relations, United States Senate, One Hundred Twelfth Congress, First Session, January
     31, 2011.

     The OIG team conducted work at Embassy Baghdad and at PRT locations in Erbil
     and Kirkuk, which are two of the four planned locations for consulates and embassy
     branch offices. At these sites, the OIG team interviewed directors, management
     officers, regional security office agents, and PRT leaders and their deputies and staff.
     The OIG team also obtained and reviewed planning and reporting documents from
     officials in the field.

     OIG conducted this evaluation from August 2010 until February 2011. OIG
     conducted this evaluation in accordance with the Quality Standards for Inspection
     and Evaluation issued in January 2011 by the Council of the Inspectors General on
     Integrity and Efficiency.

     The report was prepared under the direction of Richard “Nick” Arntson, Assistant
     Inspector General for MERO. The following staff members conducted the evaluation
     and/or contributed to this report: Patrick Dickriede, Kelly Herberger, Jennifer L.
     Manzullo, David R. Miller, Gerald P. Montoya, and J. Addison Ricks.




32     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



APPENDIX II: ONGOING IRAQ
STRATEGIC PARTNERSHIP OFFICE
PROJECTS AS OF FEBRUARY 11, 2011

                                                                          Ongoing                     Funds Obligated
             Sector or Other Expenses
                                                                          Projects                  (dollars in millions)
 Iraq Relief and Reconstruction Funds
 Building/Education/Health                                                       0                                $0
 Electricity                                                                     2                               77.4
 Water                                                                           1                                3.3
 Security and Justice                                                            1                               17.9
 Transportation/Communication                                                    3                               66.3
 Grants (non-construction)*                                                      2                                8.1
 Contracts (non-construction)*                                                   0                                 0
 Subtotal                                                                       10                               $173
 Economic Support Funds
 Building/Education/Health                                                      32                                45
 Electricity                                                                    12                               31.1
 Oil                                                                             0                                 0
 CD/Operations, Maintenance, Sustainment                                         6                                6.8
 Water                                                                          16                               38.3
 Security and Justice                                                            2                                0.2
 Transportation/Communications                                                   0                                 0
 Grants (non-construction)*                                                      2                                0.4
 Contracts (non-construction)*                                                   1                                 2
 Infrastructure Security Program Water                                           0                                 0
 Infrastructure Security Program Oil                                             0                                 0
 Infrastructure Security Program Electricity                                     2                                8.3
 Targeted Development Program                                                    0                                 0
 Subtotal                                                                       73                             $132.1
 Total                                                                          83                             $305.1

*These contracts and grants are for other than “brick and mortar” projects, and include funding for a wide variety of
activities such as consultant fees, legal services, public awareness campaigns, and salaries.




   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   33


                       SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





34   OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



APPENDIX III: COMMENTS FROM
THE BUREAU OF INTERNATIONAL
NARCOTICS AND LAW
ENFORCEMENT AFFAIRS

                                                                     United States Department of State
                                                                    Washington, D.C. 20520

                                                                     March 28, 2011

UNCLASSIFIED MEMORANDUM

TO:                    OIG         – Harold W. Geisel

FROM:                  INL         – William R. Brownfield
SUBJECT:               Comments on the Draft Report on Department of State Planning for
                       the Transition to a Civilian-led Mission in Iraq


    INL appreciates the opportunity to review and provide comments on the
draft report on Department of State Planning for the Transition to a Civilian-led
Mission in Iraq and generally agrees with the draft report. Below, we offer general
comments on INL-related issues in the report and, although INL is not the action
office, we comment on the potential impact of two recommendations on INL
programs if implemented. In addition, the Bureau offers technical corrections to the
draft report that are provided as an attachment.

General Comments:

Size and Scope of INL’s Police Program. On pages 3, 6, 10, 14 and 22, the report states
that the size and scope of INL’s police development mission have not been finalized
and as a result the embassy cannot finalize its plans (pg. 10). On page 22, the report
specifically states:

    “Other problems are a result of failure to make timely decisions, such as
    determining the scope and number of police trainers and the scope of the OSC
    mission.”


  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   35


                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




          This statement and all other references to this issue throughout the report
     pertaining to a lack of timely decisions regarding INL’s Police Development Program
     (PDP) are not correct. In fact, the size and scope of the PDP has been determined
     since August 2009. However, planning efforts have been hindered by a lack of
     clarity on funding levels and delays in congressional appropriations. As a result, the
     Deputy Secretary for Management and Resources, in response to decisions made
     by the Administration’s Deputies Committee in summer 2010 and again in winter
     2011, requested that INL refine the overall size and scope of the PDP. This action
     was done concomitantly with similar policy reviews that revised the overall size and
     scope of the Embassy’s diplomatic presence in Iraq. These actions should not be
     construed as a “…failure to make timely decisions,” as the report suggests. Indeed,
     as further support requirements, overall costs and anticipated funding levels for the
     PDP became known, the policy decisions to revise the size and scope of the PDP
     were made in a timely manner. Once these decisions were implemented, INL closely
     coordinated any changing ramifications in support requirements – e.g. staffing
     numbers – with Post and the relevant bureau(s) through the Iraq Transition Working
     Group and sub-working groups. Moreover, the goals and objectives of the PDP have
     remained constant and are based on ongoing coordination with our Government
     of Iraq interlocutors. The PDP will focus on mentoring, advising and training
     for senior officials who are responsible for leadership and management of the Iraqi
     Ministry of Interior and Iraqi Police Services.

     Training. On pages 6 and 14, the report indicates that the Department has been
     unable to decide on who will need training or what training is needed. On page
     14, the report states:

         “However, the Department has been unable to decide on the staffing numbers
         for U.S. Government direct-hire personnel, contractors, or trainers; who will
         need training; or what training is needed.”

         The PDP does have detailed information on the type of training that will be
     provided, staffing and who will need what training. We continue to work closely
     with our Iraqi counterparts to identify what specific training elements they seek
     in each respective facility or department, and we have prepared an initial compen-
     dium of training materials covering more than 100 courses.

     Protective Security Plan. On pages 3, 6 and 14, the report indicates that the
     Department has not concluded a protective security plan for personnel involved in
     the police program. On page 14, it specifically states:

         “Protective security for contractor personnel is expected to be provided
         either under the Bureau of Diplomatic Security’s (DS) Worldwide Protective
         Security contracts or a standalone INL-financed security services contract.




36     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                           SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




    However, as of February 2011, DS and INL had not reached a decision and no
    agreements had been finalized.”

     Under Secretary Kennedy determined over a year ago that INL’s PDP will
fall under the security responsibility of the Department’s Bureau of Diplomatic
Security (DS). INL and DS will shortly finalize a Memorandum of Agreement
to codify the roles and responsibilities of each bureau in terms of security for the
INL programs. However, the exact requirements and security posture continue
to evolve in accordance with decisions impacting both the program and security
requirements and the changing political and security environment in Iraq. INL
and DS work closely together and will continue to do so throughout the life of the
program to ensure INL advisors/trainers are provided appropriate security.

Recommendations:

While none of the report’s recommendations are specifically slated for INL
action, Recommendations 1 and 2 do have collateral impact on INL’s responsibili-
ties. Our specific comments in this regard are as follows:

Recommendation 1: OIG recommends that Embassy Baghdad, in consulta-
tion with the Bureau of Near Eastern Affairs and the Bureau of Resource
Management, develop detailed cost estimates for: (1) completing the transition to
a civilian-led mission in Iraq, including construction and procurements; and (2)
future funding requirements to sustain programs and operations, including police
training, the Office of Security Cooperation, provincial posts, security, air trans-
portation operations, medical care, and facility requirements. (Action: Embassy
Baghdad, in consultation with NEA and RM)

    INL concurs that detailed cost estimates must be established but offers that
further definition of requirements, revisions on support costs and the changing
environment in Iraq lead to continually evolving estimates. NEA, RM and INL
are constantly reviewing and revising cost estimates to ensure the assumptions
and estimates are as accurate and up to date as possible.

Recommendation 2: OIG recommends that Embassy Baghdad evaluate colo-
cating the planned temporary consulate in Erbil at the contingency operations
site near the Erbil airport, with Bureau of International Narcotics and Law
Enforcement Affairs’ police training and air wing operations, until a permanent
consulate is constructed. This colocation could result in an estimated $12.2
million in cost savings for facilities improvements and undetermined savings for
duplication and life support. (Action: Embassy Baghdad)

   INL understands the recommendation to colocate the consulate at Erbil with
INL programs and the air wing at COS Erbil, but does not believe it is a feasible



  OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   37


                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     option at this time. We understand that the decision was made to keep the
     temporary consulate facilities at Ankawa compound in order to reduce the costs
     needed to build at COS Erbil. Furthermore, since COS Erbil is not expected to be
     the final location of the future consulate, there was limited utility in moving the
     consulate operations now, just to move them again when the consulate was built.
     Finally, it is possible that the future permanent consulate will not be built and
     operational before INL’s police program departs Erbil. If the temporary consulate
     operations moved to COS Erbil, the costs to maintain and operate a facility with-
     out INL sharing the burden would be far too costly.

     If you have any additional questions or concerns, please contact Patricia Yorkman
     of my staff at (202) 453-8036.

     Attachment: As noted.




38     OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011


                           SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





OIG Report No. MERO-I-11-08 - DOS Planning for the Transition to a Civilian-led Mission in Iraq Performance Evaluation - May 2011   39


                    SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926


         oighotline@state.gov


              oig.state.gov


      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

